<html>
<title> - STRENGTHENING OUR COMMITMENT TO MINNESOTA SENIORS: PROMOTING INDEPENDENT LIVING THROUGH THE OLDER AMERICANS ACT REAUTHORIZATION</title>
<body><pre>[Senate Hearing 111-861]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-861

                    STRENGTHENING OUR COMMITMENT TO
                MINNESOTA SENIORS: PROMOTING INDEPENDENT
         LIVING THROUGH THE OLDER AMERICANS ACT REAUTHORIZATION

=======================================================================

                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            MAPLE GROVE, MN

                               __________

                           SEPTEMBER 10, 2010

                               __________

                           Serial No. 111-25

         Printed for the use of the Special Committee on Aging





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                  U.S. GOVERNMENT PRINTING OFFICE
64-224 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                       SPECIAL COMMITTEE ON AGING

                     HERB KOHL, Wisconsin, Chairman
RON WYDEN, Oregon                    BOB CORKER, Tennessee
BLANCHE L. LINCOLN, Arkansas         RICHARD SHELBY, Alabama
EVAN BAYH, Indiana                   SUSAN COLLINS, Maine
BILL NELSON, Florida                 GEORGE LeMIEUX, FLORIDA
ROBERT P. CASEY, Jr., Pennsylvania   ORRIN HATCH, Utah
CLAIRE McCASKILL, Missouri           SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
KIRSTEN GILLIBRAND, New York
MICHAEL BENNET, Colorado
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
                 Debra Whitman, Majority Staff Director
             Michael Bassett, Ranking Member Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Al Franken..........................     1

                                Panel I

Jim Varpness, Regional Administration for the United States 
  Department of Health and Human Services Administration on Aging     4

                                Panel II

Statement of Sherilyn Moe, Office of Ombudsman for Long-Term 
  Care, St. Paul, MN.............................................    18
Statement of Kathleen Harrington, Chair, Minnesota Board on 
  Aging, St. Paul, MN............................................    24
Statement of Jan Ferrier, Anoka, Minnesota Resident, User of 
  Older Americans Act Services, Coon Rapids, MN..................    34
Statement of Iris C. Freeman, Associate Director, Center for 
  Elder Justice and Policy, William Mitchell College of Law......    37
Statement of Neil Johnson, Executive Director of The Minnesota 
  Homecare Association, St. Paul, MN.............................    43

                                APPENDIX

Testimony submitted by Minnesota Association of Area Agencies on 
  Aging..........................................................    55
Testimony submitted by Minnesota Adult Day Services Association..    57
Statement submitted by National Alliance on Mental Illness of 
  Minnesota......................................................    60
Statement submitted by Minnesota AARP............................    64
Statement submitted by Minnesota Leadership Council on Aging.....    74
Statement submitted by Volunteers of America of Minnesota........    76
Testimony submitted by Minnesota Women's Consortium..............    82
Testimony submitted by Experience Works, Inc.....................    84
Statement submitted by Lutheran Social Services of Minnesota.....    87
Statement submitted by Senior Community Services.................    89
Statement submitted by DARTS, West St. Paul, MN..................    90
Statement submitted by Living at Home Network....................    94
Testimony submitted by Mary Jo Schifsky, Executive Director, 
  Store to Door..................................................    96
Statement submitted by Minnesota Association of Senior Nutrition 
  Services.......................................................    97
Statement submitted by Dr. Robert Kane, Minnesota Chair in Long-
  Term Care and Aging, University of Minnesota School of Public 
  Health.........................................................    99
Testimony submitted by Gayle Kvenvold, President and CEO, Aging 
  Services of Minnesota..........................................   101
Statement submitted by Steve Hennes, Whitney Senior Center.......   103
Statement submitted by Krista O'Connor, Administrator, Eldercare 
  Partners, West St. Paul, MN....................................   104
Statement submitted by Janice Sinna, Program Coordinator, 
  Minnesota Network on Abuse in Later Life.......................   107
Testimony submitted by National Association of Area Agencies on 
  Aging (n4a's)..................................................   109

                                 (iii)

  

 
                    STRENGTHENING OUR COMMITMENT TO
                      MINNESOTA SENIORS: PROMOTING
   INDEPENDENT LIVING THROUGH THE OLDER AMERICANS ACT REAUTHORIZATION

                              ----------                              --



                       FRIDAY, SEPTEMBER 10, 2010


                                       U.S. Senate,
                                Special Committee on Aging,
                                                   Maple Grove, MN.
    The Committee met, pursuant to notice, at 1:30 p.m., in the 
Maple Grove Community Center, Hon. Al Franken, presiding.
    Present: Senator Franken [presiding].
    Index: Senator Franken.

            OPENING STATEMENT OF SENATOR AL FRANKEN

    Senator Franken. I now call the Special Committee on Aging 
Hearing on the Reauthorization of the Old Americans Act to 
order. Thank you all for turning out. Thank you to the Maple 
Grove Community Center for hosting this event. This is an 
official hearing of the Senate Special Committee on Aging, and 
we'll be hearing from a number of key experts on aging.
    I'm pleased that additional experts have submitted 
testimony for the record. I welcome everyone in attendance also 
to submit any comments you have about today's hearing to my 
office using the form that you received when you came in.
    I'm pleased to have the opportunity to discuss this 
important law and to hear your recommendations for improving 
it. I'm proud to sit on two key Senate committees that oversee 
senior services and I want to make sure that we're doing all 
that we can so that Minnesota seniors remain independent and 
healthy for as long as possible.
    So, thank you all for being here to be part of the 
Reauthorization of the Older Americans Act, and to share your 
expertise on seniors issues in Minnesota and across the nation.
    The Older Americans Act funds many crucial programs for our 
seniors, Meals on Wheels, caregiver support, health promotion, 
elder abuse prevention, and much, much more. These programs are 
cost effective with a high return on investment. In Minnesota 
we spend an average of $4,900 per month for a resident in a 
care center, as compared to $2,700 for those seniors we support 
to stay at home. That's real savings, and that's why it's 
important that we're not pennywise and pound foolish by 
underfunding these programs that help people stay in their 
homes. Keeping people out of nursing homes saves money and it's 
what seniors want; it's win/win.
    The Older Americans Act became law in 1965 when the country 
was concerned seniors were not getting the services that they 
needed. Today, 45 years later, we've made progress in many 
areas, but we still have a lot to do to ensure that seniors 
have the resources they need to be independent and the support 
they deserve at the end of life. These issues are especially 
salient now because our country's demographics are changing. 
Next year, the first baby boomers will begin to turn 65. My 
brother, Owen, will be 65 next August. I can't believe it, 
because that means I'm older, too.
    Thanks to medical advances and to the boomers' commitment 
to stay active, boomers are expected to live longer than 
members of any previous generation. By 2030, almost 20 percent 
of our population is estimated to be over the age of 65. So now 
more than ever, we need to be ready to help seniors stay 
healthy and independent as they age.
    During the past few months my staff and I have held 17 
listening sessions across the State, actually I asked my staff 
to do 17, and I got a report back from them, I've done three 
since. I've learned a lot from these conversations and the 
information is guiding legislation that I will be introducing 
this fall. I've learned that Minnesotans, Minnesota seniors, 
want to stay in their homes as long as possible, and to do that 
they need access to transportation and other support services. 
They want nursing home care only when they really need it, and 
even when they're in a nursing home, seniors don't want to be 
told exactly when they want to eat and sleep, and they 
definitely don't want to be forced to go to bed before the 
Twins game is over. [Laughter.]
    Especially this year.
    The main message I've heard from Minnesota seniors across 
the State is that they want to remain vital and active in their 
later years, they want to take their grandkids fishing, go to 
the State fair, work in the garden, and be as independent as 
possible. So, how do we make that happen?
    Well, the Older Americans Act does a lot--does a lot to 
keep our seniors in their homes. A little support goes a long 
way, and that's what the Older Americans Act is all about.
    Today we'll hear testimony from Jan Ferrier from Coon 
Rapids who uses Older American Act services for leaf raking, 
snow shoveling, and the occasional lunch at the Coon Rapid's 
Senior Center. As Jan will tell you, just because you can't 
shovel your driveway any more, or you need help with meals now 
and then, that does not mean that you should have to move into 
a nursing home. It doesn't mean that you should have to give up 
your independence. Just like Jan, more Minnesota seniors are 
looking for ways to receive services at home so they can 
continue to live independently. The demand for home and 
community-based services is increasing and people are actually 
moving out of nursing homes to receive care at home.
    Minnesota has been at the forefront of this national 
movement, this culture change to support seniors' independence, 
and that's why it's critical that we seize the opportunity 
presented by next year's reauthorization of the Older Americans 
Act, to increase access to high quality home and community-
based services for all seniors, whether they're down in Dodge 
county or right here in the metro area.
    When lawmakers passed the Older Americans Act 45 years ago, 
they tried to anticipate the needs of future generations of 
seniors. They set up a national infrastructure that included 
the U.S. Administration on Aging, and State units on aging, 
like the Minnesota Board on Aging, both of which are 
represented here today. These agencies are vital resources for 
seniors and have been successful in helping seniors remain 
independent. However, many Older Americans Act programs 
struggle to find enough resources to meet the needs of seniors. 
We need to take steps to ensure that the Older Americans Act is 
able to deliver on its promise to support our seniors.
    As we move forward with the reauthorization, I'm committed 
to championing legislation that builds on Minnesota's 
leadership in aging services, like our State's Homecare Bill of 
Rights, and the report card on quality for home and community-
based services. I want to strengthen the Older Americans Act 
for Minnesota seniors and I'm looking forward to hearing from 
our witnesses about the opportunities they see for promoting 
senior independence in the reauthorization.
    Thank you all again for being here, and thank you to those 
who submitted testimony for publication in the Congressional 
record in connection with today's hearing.
    I would like now to introduce Jim Varpness, Regional 
Administrator for the United States Department of Health and 
Human Services Administration on Aging. Mr. Varpness is filling 
in for Assistant Secretary Kathy Greenlee of the Administration 
on Aging whose flight was unfortunately delayed and unable to 
join us today. Mr. Varpness was kind enough to fly in today 
from Chicago to deliver Assistant Secretary Greenlee's 
testimony and answer questions on her behalf.
    Mr. Varpness currently oversees the administration of the 
Older Americans Act in Minnesota and the Midwest, and has over 
28 years of experience with Minnesota's aging services. Prior 
to his current position at the U.S. Administration on Aging, 
Mr. Varpness served as the Executive Director of the Minnesota 
Board on Aging and the Director of the Division of Aging 
Services at Minnesota's Department of Human Services. He was 
also Director of Minnesota's Office of the Ombudsman for long-
term care. Mr. Varpness holds a Masters in Public 
Administration from Hamlin University.
    Thank you, Mr. Varpness for joining us today on such short 
notice, and I look forward to hearing your testimony delivered 
on behalf of Assistant Secretary Greenlee. Thank you.

   STATEMENT OF JIM VARPNESS, REGIONAL ADMINISTRATOR FOR THE 
     UNITED STATES DEPARTMENT OF HEALTH AND HUMAN SERVICES 
                    ADMINISTRATION ON AGING

    Mr. Varpness. Thank you, Senator Franken, and again, I 
extend Assistant Secretary for Aging Greenlee's apologies for 
not being able to be here. But as you know, when they tell you 
there's something wrong with the plane, you don't get on it. 
So--
    Senator Franken. Smart, smart policy.
    Mr. Varpness. Yeah, she's a very smart lady.
    Anyway, thank you, Senator Franken for the opportunity to 
testify before the Senate Special Committee on Aging hearing on 
the upcoming reauthorization of the Older Americans Act. We're 
pleased to discuss our efforts to solicit input from throughout 
the country and to hear Minnesota's perspective on this 
important legislation that provides vital home and community-
based services to older adults and their caregivers.
    At the outset, we would like to commend you, Senator, for 
your leadership as a member of the Senate Special Committee on 
Aging, as well as a member of the Committee on Health, 
Education, Labor and Pensions, Judiciary Committee, and the 
Senate Committee on Indian Affairs, whose jurisdictions impact 
many of the Older Americans Act programs and services 
administered by the Administration on Aging. We are grateful 
for the support you have provided for Older Americans Act 
programs and especially for your strong interest in consumer 
fraud and elder rights issues.
    We're impressed by the level of commitment and dedication 
of Minnesota's aging network as well, and by the interest and 
enthusiasm of your older citizens and their families. We would 
like to also recognize Kathleen Harrington, who is Chair of the 
Minnesota Board on Aging, the local area agencies on aging, the 
Tribal organizations, and other advocates for seniors here in 
Minnesota, and commend them all for their continued work on 
behalf of older citizens here in this State and across this 
land.
    Minnesota is a leader in so many areas related to health 
and well-being of seniors and soon-to-be seniors, like your 
brother, and the rest of our Nation has much to learn from your 
citizens.
    On July 14, 1965, as you noted, President Johnson signed 
the Older Americans Act into law. Sixteen days later, on July 
30, he signed legislation creating Medicare and Medicaid. These 
three programs, along with Social Security created back in 
1935, have served as the foundation for economic, health and 
social support for millions of seniors, individuals with 
disabilities and their families. Because of these programs, 
millions of older Americans have lived more secure and healthy 
and meaningful lives in this country. The Older Americans Act 
has quietly but effectively provided nutrition and community 
support to millions of people across Minnesota and across this 
land. It has also protected the rights of seniors, and in many 
cases, has been the key to their independence.
    In 1965, there were about 26 million Americans age 60 and 
over. Today, there are 57 million older Americans 60 years and 
over, with many more on the immediate horizon. Our senior 
population is not only growing larger, but is also becoming 
more diverse. The older population, age 85 and older, is also 
projected to increase significantly. In 1990, the 80-plus 
population was about 3 million people. In 2020, that figure is 
projected to be more than double by about 6.6 million according 
to the Census. Many will need long-term care, both in the 
community and when that becomes impossible, in nursing homes 
and other facilities. Reliance on family members who currently 
provide 80 percent of long-term care assistance for seniors 
will also increase.
    The historic enactment of the Affordable Care Act by 
President Obama on March 23rd of this year, provides us with 
another tremendous opportunity to harness the success and 
progress of the last four decades to further improve the health 
and lives of older Americans and support their caregivers. As 
you know, the Affordable Care Act represents the biggest change 
in our national health care delivery system since 1965. Just as 
they were in 1965, the programs of the Older Americans Act and 
our national aging network of State, tribal and community 
organizations, senior advocates, volunteers, providers and 
family caregivers will be called upon to complement, support 
and enhance these changes. How successfully we weave these 
multiple responsibilities together will say much for how we 
will care for seniors in the future.
    As part of the process for reauthorizing the Older 
Americans Act, early this year the Administration on Aging 
sought input from people all across this Nation in a number of 
very specific areas. We sponsored three onsite listening 
sessions, in Washington, Dallas, and San Francisco. We co-led 
the first of its kind listening webinar with Department of 
Labor on workforce issues for seniors and the Older American 
Community Service Employment Program. We encouraged the conduct 
of State and local listening events throughout the country and 
we received on-line summaries of the events and we provided 
online and downloadable individual input forms on its 
reauthorization website at the administration.
    Over 400 individuals from 48 States and Territories have 
participated in the public input process and sessions. We 
believe the individuals and organizations that provided input 
represent the interest and concerns of thousands of Americans 
and consumers throughout this land.
    I am pleased to report that Minnesota was an active 
participant in this process with input topics including: 
sustaining aging programs as the older populations expand; 
providing more flexibility in Title III programs in funding 
streams; increasing support for family caregivers; simplifying 
cost-sharing provisions; and supporting direct service workers.
    Overall, the types of input we received throughout the 
country can be grouped into the following general categories: 
structure administration and service delivery and expansion. 
Specifically, we heard some of the following recurring themes 
at these listening sessions. One, the importance of the 
original Declaration of Objectives in Title I of the Act that 
establishes the guiding principles and goals of the Act in 
creating a society that enhances the lives of older persons.
    The importance of the role of the assistant secretary in 
advocacy in coordinating and advocating on behalf of older 
persons and aging issues within and across Federal agencies and 
departments. Also, the role of Administration on Aging and the 
entire aging network in advocating on behalf of older 
individuals at the Federal, State, tribal and local levels.
    The importance of home and community-based services and the 
aging network infrastructure for responding to the needs and 
preferences of older persons, the importance of information and 
assistance, and the need for consolidated access, such as 
single points of entry, another area that Minnesota is a 
national leader through your Senior LinkAge Line and your 
Minnesota Help Network, the need for flexibility in programming 
to respond to local and area needs, the need to include a broad 
range of evidence-based interventions as a component of Health 
Promotion, Disease Prevention part of the Older Americans Act, 
the need for greater inclusiveness of various kinds of kinship 
care and more respite services in the provisions of caregiver 
services, the unique challenges of providing services and 
meeting the needs of individuals residing in rural, remote and 
frontier areas across this country.
    The importance of innovation, research, demonstrations and 
training authority and funding and how it has played a 
significant role in building the aging network and enhancing 
the field of aging in this country. The need to restore more of 
a sense of community services back in the Older American 
Community Service Employment Program, and to look at ways to 
distinguish the program from other workforce and job placement 
programs at the Department of Labor. The need to fully 
recognize the sovereignty of tribal nations in Title VI and to 
consolidate programming for Tribes from other parts of the Act 
to Title VI. The importance of focusing, of course, on elder 
rights and elder justice issues and to look broadly on building 
effective infrastructures through enhanced coordination with 
domestic violence, adult protective services, ombudsman, 
consumer protection agencies, and other such entities.
    Within the Administration, the process for the 
reauthorization has already begun. We are discussing the input 
we have received within the Department of Health and Human 
Services. For the past 45 years, the Older Americans Act has 
become recognized and highly regarded for stimulating the 
development of comprehensive home and community-based services 
system that has enhanced the lives of older persons and their 
family caregivers. We look forward to the reauthorization 
process as a means to strengthen and position this important 
piece of legislation so that its programs and services will 
continue to carry out the important mission of helping elderly 
individuals maintain their health and independence in their 
homes and communities.
    Thank you, Senator Franken, and I will be glad to answer 
your questions.
    [The prepared statement of Mr. Varpness follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Senator Franken. Thank you, Mr. Varpness. I'm kind of 
assuming that most of the people here have an understanding and 
knowledge of the Older Americans Act. But for those who may 
have come and don't really know the day to day of what it is. 
You gave us a nice, view from 30,000 feet, and on some of the 
kinds of areas that need attention in--or need focus on the 
reauthorization, but having gone through a number of these, I 
just want to touch on some of the things you said before I ask 
you questions, because you have so much experience here in 
Minnesota on this, on what we're really talking about, because 
you talked about things like employment and nutrition and 
transportation and respite services.
    Nutrition is Meals on Wheels, and is also congregate 
dining. Now, you know, I've been in these listening sessions 
where you hear that Meals on Wheels is not just providing 
nutrition, but it's providing companionship. Sometimes it will 
be the only time during the day that the senior will see 
someone. Sometimes it's finding a senior who has gone to their 
mailbox and collapsed, and Meals on Wheels can be--that person 
who can save a life. So, I just want to give people a very 
quick overview because I don't want to take from your time and 
my time of asking you questions.
    Transportation, I want to ask you about transportation in 
rural areas particularly, this is the one thing I anticipated 
before I asked my folks to go out there and have these 
listening sessions, I said you're going to hear most about 
transportation. I want to get your ideas on what we can do 
because, I want to ask you about an idea my wife has. But, this 
is basically so that seniors can go to a doctor's appointment. 
Sometimes this is like a bus line, you know, sometimes this is 
volunteers who come out and drive seniors to a haircut or to a 
senior center or to a congregate meal. When I say nickel and 
diming, some of these volunteers get reimbursed only for the 
period of time when the senior is in the car. So if you drive 
out to where the senior lives, you don't get reimbursed for the 
gas for that time when you're driving without the senior in the 
car, that to me is kind of silly.
    It's helping with chores, senior companions, these are the 
kinds of things that we're talking about. So, I think as this 
hearing continues on, I think we'll hear more and more about 
these things, but I want to have people get a feel for what the 
Older Americans Act does, and how it is more than just 
providing services, it's a human thing and the people that are 
involved in this field are unbelievably great people, and thank 
you for your many, many years of service here in Minnesota and 
nationally.
    I want to ask you how you feel Minnesota has been a leader 
in the Older Americans Act and what we can use from Minnesota 
in the reauthorization.
    Mr. Varpness. Thank you, Senator. Minnesota really is truly 
a leader in so many different kinds of areas. I think Minnesota 
has a strong policy toward providing assistance for people to 
age in place, to receive help as much as possible and to stay 
at home as long as possible. You see that in your waivered 
service programs under the Medicaid program and you see it 
also----
    Senator Franken. Can you explain that for everyone?
    Mr. Varpness. Under the Medicaid program, Minnesota, of 
course pays for nursing home care for individuals, but also 
pays for home and community-based services. Minnesota is a 
leader in terms of really trying to redirect its Medicaid 
dollars toward helping people to stay more at home. It's one of 
the top five or so States in terms of really moving and serving 
more and more people in long-term in community-based settings 
and in their home than in nursing home care. So it's--and 
Minnesota's been in that area for quite some time and has done 
so.
    Minnesota has done a great job and has really been a 
national leader in terms of its Senior LinkAge Minnesota Help 
System, really trying to identify a single place where 
individuals can go for all kinds of answers, connecting with 
coaches to help the identify services that might help them, 
their mom, their dad.
    Senator Franken. What you call the single point of entry.
    Mr. Varpness. Single point of entry types of things, but 
providing it in a sense of trying to help people find programs 
they may be in fact eligible, trying to direct them toward 
places and services that they can pay for and purchase out of 
their own pockets when they're able to do so, but also to 
connect them with specialists and people that really understand 
various kinds of chronic diseases to really help them try to 
deal with some of those kinds of things. Minnesota has been a 
great leader, I think, in that particular area as well.
    Senator Franken. Jim, I'm being told by my staff that we've 
got to keep moving on, but I want you to stay and be available 
for questions when I ask questions of the second panel.
    So, thank you, Jim, and please stick around.
    Now I'd like to invite the second panel of witnesses to 
come forward. Joining us today is Sherilyn Moe, on behalf of 
Deb Holtz. Deb is Minnesota's State Ombudsman for Long-Term 
Care, and Sherilyn--I'm not sure, we'll find out soon on what 
basis Sherilyn feels she can fit in---- [Laughter.]
    For Deb who oversees this important program to protect 
consumers of long-term care services from abuse and neglect. 
Ms. Holtz has worked for 30 years in long-term care and she has 
worked with home and community-based services, nursing homes, 
and with the Centers for Medicaid and Medicare services, and 
we'll find out exactly what Sherilyn's history is when she 
testifies.
    Next is Kathleen Harrington. Ms. Harrington serves as Chair 
of the Minnesota Board on Aging, which is responsible for 
administering the Older Americans Act funds in Minnesota. Ms. 
Harrington also works with Carol Corporation, a Minneapolis-
based healthcare company that helps healthcare systems 
transition from a volume-base to value-base model of care, 
which is a big part of the affordable care Act, a big purpose 
of it. Ms. Harrington has also worked on healthcare policy in 
the United Stated Congress, the Executive Branch, and as 
Director of External Affairs at the centers for Medicare and 
Medicaid services. Ms. Harrington also served in senior 
positions at United Healthcare.
    Next is Jan Ferrier, who I spoke of earlier. Ms. Ferrier is 
a resident of Coon Rapids, where she has lived since 1966. In 
her forties, Ms. Ferrier suffered from two consecutive strokes 
that resulted in limited mobility on her right side. She 
currently received services funded by the Older Americans Act 
through the Chores and More program. To stay active, Ms. 
Ferrier enjoys gardening and quilt making, she holds degrees in 
Aviation Administration and Aviation Business.
    Next is Iris Freeman. Ms. Freeman is Associate Director and 
a Professor of Law at the Center for Elder Justice and Policy 
at the William Mitchell College of Law in St. Paul. She has 
also taught at the University of Minnesota Graduate School of 
Social Work. Ms. Freeman has directed the Advocacy Center for 
Long-Term Care, now the Elder Rights Alliance for over 20 
years. She was the Staff Director of Public Policy at the 
Minnesota Dakota's Chapter of the Alzheimer's Association. 
Since the 1970's, Ms. Freeman has brought the consumer 
perspective to State and national discussions on long-term 
care. She holds degrees from Barnard College and the University 
of Minnesota, and publishes widely in professional and 
scholarly journals.
    Finally, we have Neil Johnson, Executive Director of the 
Minnesota Homecare Association, which represents homecare 
agencies across the State. Previously Mr. Johnson served as 
Administrator of First Choice Homecare in St. Paul. He has 12 
years of experience in planning and development, and has served 
as owner and business administrator of several Twin Cities 
child development centers. Mr. Johnson is currently co-chair of 
the Minnesota Leadership Council on Aging. Mr. Johnson is a 
licensed social worker and holds a Masters of Social Work from 
the University of Minnesota-Duluth.
    Thank you all for being here, and I look forward to hearing 
all of your testimony.
    Let's start now with Ms. Moe.

 STATEMENT OF SHERILYN MOE, OFFICE OF OMBUDSMAN FOR LONG-TERM 
                   CARE, ST. PAUL, MINNESOTA

    Ms. Moe. Good afternoon.
    Senator Franken. Good afternoon.
    Ms. Moe. My name is Sherilyn Moe, and I work at the Office 
of Ombudsman for Long-Term Care.
    Senator Franken. Can you talk directly into the mic?
    Ms. Moe. Yes. I've been with the Ombudsman Office for 20--
thank you. That helps.
    Senator Franken. It's a very directional mic.
    Ms. Moe. That helps. I'll start over.
    I have worked at the Office of Ombudsman for Long-Term Care 
for a total of 23 years, and my position is an Ombudsman 
Specialist. My specialty is in home and community-based 
services and elder housing. I oversee our State-wide volunteer 
program and I coordinate all of our continuing education for 
Ombudsman and our volunteers.
    Senator Franken, thank you for the honor of representing 
the experiences and concerns of the Ombudsman Office. Most of 
the people that we represent are not here because they are in 
nursing facilities or in other settings and are much more 
vulnerable than the average older Minnesotan and that is why 
they are in those settings.
    The Minnesota Office of Ombudsman for Long-Term Care has a 
broad Federal mandate to enhance the quality of life and 
quality of services for long-term care consumers through 
advocacy, education, and empowerment.
    The Long-Term Care Ombudsman Program was established in 
1978 through the Federal Older Americans Act mandating that 
states establish ombudsman programs that advocate for people 
living in nursing homes and board and care homes. In the late 
eighties, Minnesota expanded this role to include Medicare and 
homecare clients under auspices of Jim Varpness.
    Minnesota is one of only twelve other States that their 
Long-Term Care Ombudsman programs have expanded into the 
homecare role through additional State funding. But it's 
important to note that this additional State funding does not 
meet the needs of the increased calls that we are receiving. 
There are limitations in having an expanded authority with 
limited State dollars in this kind of economy.
    Ombudsmen investigate complaints, meet personally with 
customers who have issues with their long-term care services, 
work to resolve individual concerns, and identify problems and 
advocate for changes to address them. Ombudsmen promote self-
advocacy and the development of problem-solving skills through 
education and training for consumers, their families, friends, 
caregivers, providers and the community.
    We currently serve persons who live in the State veterans' 
homes, nursing homes, board and care homes. We also serve 
persons who receive in-home services and certain community 
services, tenants in housing with services, Medicare 
beneficiaries who seek assistance with concerns regarding 
hospital access, denial of inpatient or outpatient services, or 
discharge questions and concerns. We also work with many older 
Minnesotans who live in adult foster care homes, people who 
will receive hospice services and many other long-term care 
services and supports.
    I feel--it sounds like I am whistling. Does it sound like 
that to anyone else? Am I too close?
    Senator Franken. There might be a little feedback, I don't 
know.
    Ms. Moe. Push it back. Thank you.
    One of the main purposes of our office is to ensure that 
people know what their rights are and make real informed 
choices about where they want to live and then to live without 
fear of neglect, abuse, or financial exploitation.
    We have many good laws in Minnesota that explain people's 
rights. Knowledge of these laws and enforcement is key to 
success. The Minnesota Home Care Bill of Rights is an excellent 
example of the initiative that Minnesota has taken. In 1987, 
the Minnesota Homecare Bill of Rights was enacted for people 
receiving in-home services or homecare services. This, again, 
is an excellent example of consumer protection that can easily 
be duplicated on a national level, as there is no national 
homecare bill of rights. There is under Medicare, of course, 
for homecare consumers.
    This Bill of Rights has many excellent components, 
including the right to receive information, the right to be 
free from abuse, the right to take an active part in creating 
or changing a care plan or a service plan. Included in this 
information must be the name and address of the long-term care 
ombudsman.
    This Bill of Rights, however, like any other bill of 
rights, is only as good as the enforcement, and the ability of 
people to understand choices, and to have real choices. Like 
all bills of rights, it is also only as good as what people 
understand and know, and of course, information is power.
    We know from experience, unfortunately, that many people 
will often accept what might otherwise be termed unacceptable 
assistance in their own home, because the fear of going 
somewhere else is so high. Or in some minds, there is no choice 
if the only choice is perhaps a nursing home. So information 
about choices and options are all good, but they must be real 
choice and real options.
    We must avoid policy by sound bite, ``age in place'', 
``choices'', ``live well age well'' all sound good, but what do 
they really mean? Choices are based on feasible choices for the 
person, choices that allow them to still have control, choices 
that allow them to keep the relationships in their lives, and 
choices that enable them to live their days in dignity.
    We know that some choices are made because of people not 
wanting to lose that last connection with family, even if it is 
a grandson financially exploiting grandma by threatening not to 
visit if she does not give him some money. We know that choices 
are sometimes made because vulnerable adults feel too guilty to 
turn in their abusive daughter or son.
    So along with real choices, we know that people also need 
eyes and ears to voice with them when they are need of strength 
or help them stand up and voice for those who can not speak for 
themselves. The ombudsman is that voice. We first seek to 
provide information to all, so that people know what their 
rights are and how to stand up for them. We provide eyes and 
ears so that for those individuals who are in vulnerable 
situations, we are able to speak for them when they may not be 
able to.
    Finally, we may need to re-think the definition of staying 
at home and what supports are really needed. As we strive to 
assist people to stay in their community and live in their own 
homes as long as possible, we may not always factor in, and 
adequately fund, the most important part of people's lives, 
which is relationships. It does no good to most people to stay 
in their own homes and then become isolated from everyone 
including family, friends, their faith community, and social 
activities. There is so much more to aging than simply being 
free of maltreatment and having our basic needs met.
    It should be a given that we all age without any abuse or 
neglect, and that our lives will continue to be filled with 
dignity, real choices and relationships that give our lives 
meaning.
    Senator Franken, thank you so much for taking the 
leadership to listen to the people of Minnesota as we move to 
the next year for the renewal of the Older Americans Act. We 
appreciate your commitment to these issues, and look forward to 
working with you.
    [The prepared statement of Ms. Moe follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Senator Franken. Thank you, Ms. Moe. I have been reminded 
by staff to ask people to keep their testimony to 5 minutes. We 
don't have a clock, here, so I don't know how you're going to 
know whether you're doing it. Oh, we do? Oh, well, I stand 
corrected. So, we have a clock. So, shame on you to exceed 5 
minutes. [Laughter.]
    Ms. Harrington.

  STATEMENT OF KATHLEEN HARRINGTON, CHAIR, MINNESOTA BOARD ON 
                      AGING, ST. PAUL, MN

    Ms. Harrington. OK, since I'm on the clock, I will begin by 
quickly thanking you, Senator Franken, for your--the 
opportunity to speak to you today, but most importantly for 
your passionate commitment to the people of Minnesota. The 
quality of representation you bring, and your obvious interest 
in your constituents and in seniors, particularly, is greatly 
appreciated----
    Senator Franken. If you want to take more than 5 minutes--
-- [Laughter.]
    No, no. OK. Five minutes starts now.
    Ms. Harrington. OK. [Laughter.]
    I could go on and on. [Laughter.]
    Senator Franken. Why don't you get to the thing---- 
[Laughter.]
    Ms. Harrington. OK. All right.
    Can I be like Darsen Keeler and just throw my--all right, 
seriously. Shinatova, and thank you.
    Senator Franken. Right.
    Ms. Harrington. We also--on behalf of the Minnesota Board, 
want to thank Jim and Assistant Secretary Greenlee for both of 
their commitment to--Jim's commitment--long-term commitment 
to--service, here in Minnesota and the region, and to Assistant 
Secretary Greenlee's leadership. We already feel her imprint 
and greatly appreciate the support of the Administration on 
Aging in helping us in Minnesota to innovate and develop new 
models to help serve our seniors.
    Here in Minnesota, as in states across the country, we are 
beginning to experience the age wave--it's not just your 
brother, Senator. Many of our rural counties already have 
populations with significant proportions of older adults. At 
the same time, I think Minnesota faces particularly challenging 
issues with the increase in ethnic diversity, compounding with 
the aging. The demographic and ethnographic changes real 
challenges, and opportunities, for our State.
    The needs of older Minnesotans are diverse, they are not 
monolithic, they do not fit into one category. They are dynamic 
and dependent on geography, income, literacy and health status, 
to name a few.
    Within that context I want to speak with you today about 
three themes that reflect the Minnesota Board on Aging's work 
over the past several years and encompass the recommendations 
we have as you work on the reauthorization of this important 
statute.
    First, supporting our area agencies on aging who have to do 
more with less, to meet the increasing needs of an aging 
population. Second, the ability to engage in public and private 
partnerships to expand our home and community-based service 
capacity and the social fabrics in our community. Third, 
strengthening our programs and services to support self-
direction and ensure that the rights of older Minnesotans are 
protected and enforced.
    The mission of the Minnesota Board on Aging is to ensure 
that older Minnesotans and their families are effectively 
served by State and local policies and programs in order to age 
well and live well. We make this mission a reality through our 
three main roles: Advocacy, advisorship, and administrator. As 
an advocate, we promoted policies to the State legislature and 
the executive branch. As an advisor, we provide objective 
innovation that promote public education on ways to meet the 
challenges of Minnesota's older population. As administrator, 
we educate seniors and their families, their caregivers in 
programs and opportunities to help them do just as I said, live 
well, and age well.
    We operate the Senior LinkAge Line, as you've heard. We 
work closely with your very dedicated casework staff in meeting 
the specific needs of constituents when the bureaucracy 
sometimes fails them, and checks are lost and things are 
missing. So, we work very closely with staff, and appreciate 
their commitment, as well. We also operate the Office of the 
Ombudsman, as you heard, here, and appreciate the incredible 
dedication of that small staff to accomplish large deeds. So, 
the accomplishments of the Office are written and articulated 
in my testimony, so rather than sit here and pat myself on the 
back, and our staff, let me get to the meat of what you want us 
to do here today and talk about three areas of recommendations 
for you to consider as you and your staff do this hard work.
    We're looking to see if it's possible to increase the 
simplicity and flexibility in financing within the Older 
Americans Act. I know that's a big surprise to you. [Laughter.]
    Simplify the Act by--and this may be asking, sir, for a 
mission impossible, but consolidating its six separate home and 
community-based services funding streams under Title III into 
one, might be a way to de-complicate and save administrative 
time and funds to ensure more flexible service delivery in a 
person-centered model subservice to older adults whose needs 
reach beyond any one specific service program.
    In my professional life, in healthcare, we often say that, 
``disease does not recognize the tax year.'' Similarly, social 
needs do not recognize program definition. So, the more we can 
weave things together, we think, the better we can serve our 
population.
    Similarly, and this one may be as difficult, we would like 
to suggest you think about consolidating the Congregate Meals 
and the Home-Delivered Meals in order to provide us with 
greater flexibility in meeting the needs of people. The shift 
in the current discretionary funding of Aging and Disability 
Resource Centers, evidence-based self-management and caregiver 
support programs, and Community Living Programs, to consolidate 
those--that funding, as well.
    Second, strengthen the Ombudsman role in the community--and 
this really falls under modernization. We are working very hard 
in your home State to expand the living-at-home opportunities, 
but the Ombudsman Office does not have the resources or the 
role scope to help those who stay in their home and helping 
them in protecting their rights, as well. We ask that this be 
considered.
    Finally, we need to encourage partnerships to expand 
community service capacity. Strengthening the Act to emphasize 
the critical need for coordination, particularly in 
transportation, across Federal, State and local funding streams 
is really critical to meet the needs of this State and, we 
think, across the Nation. We seek new opportunities to partner 
with others across different parts of the government, and we 
hope that this can be accomplished through the reauthorization.
    In conclusion, thank you very much for this opportunity, 
sir. I appreciate it, I know the Board--my colleagues on the 
Board do, as well, and thank you for your leadership.
    [The prepared statement of Ms. Harrington follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Senator Franken. Thank you, Ms. Harrington.
    Ms Ferrier? Ms. Ferrier, you take advantage of some of the 
services, both--that you pay for, right, and also that--
volunteers help you with, right?
    Ms. Ferrier. That's correct.
    Senator Franken. Can you tell us a little bit about your 
story. How's that, for about 5 minutes?
    Ms. Ferrier. OK, you want my testimony.
    Senator Franken. Yes, I'd like your testimony.

 STATEMENT OF JAN FERRIER, ANOKA, MINNESOTA RESIDENT, USER OF 
         OLDER AMERICANS ACT SERVICES, COON RAPIDS, MN

    Ms. Ferrier. Can you hear me?
    During 1990, at the age of 49, I had 2 strokes affecting my 
right side, including loss of my hand, an acute sensitivity to 
cold and hearing loss. Doctors ruled the underlying cause as 
Sneddons Syndrome, which is slowly but progressively disabling. 
By the way, Sneddons Syndrome is a form of Lupus. Things became 
very challenging for me at that time. What a blessing to become 
aware of the Anoka County Community Action Program called 
Chores and More. At that time, I began using volunteers to help 
with spring and fall leaf raking and eventually to help provide 
lawn moving and snow removal.
    When it became medically necessary for me to take an early 
retirement at the age of 62, I began using the Chores and More 
Program for other things I was unable to do on my own including 
tree trimming, gutter cleaning, small carpentry projects, 
installation of a new mailbox and other things as the needs 
arise, at a reduced, affordable rate. These services have 
allowed me to stay in my home where I have lived for the past 
44 years.
    In addition to lawn and leaf raking, the program has 
provided me with volunteers who have helped dig up space to put 
in a vegetable garden, refinish a wooden picnic table, put up 
curtain rods and much more. With today's ever-increasing costs, 
the program helps me to be able to continue to live 
independently in my home.
    Other things I have utilized the Coon Rapids Senior Center 
for include occasional noon lunches, numerous free or low cost 
seminars and presentations such as Social Security benefits, 
medical insurance and much, more.
    In conclusion, I am deeply grateful for the Chores and More 
Program and the help it provides aging residents of Anoka 
County at a fair, affordable rate. Perhaps utilizing television 
and/or newspapers could make the elderly more aware of the 
program.
    As our United States Senator, I strongly urge you to 
consider Chores and More Program when making funding decisions 
for the aging. We need your help and support.
    Thank you for allowing me to testify before the Senate 
Special Committee on Aging regarding the Older Americans Act 
Reauthorization.
    [The prepared statement of Ms. Ferrier follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Senator Franken. Thank you, Ms. Ferrier. Let me just say 
that you--it's great to have you here because you put a real 
human face to this.
    When we get back to you, I want to ask you about some of 
your volunteers--some people who volunteered for you. Because 
as I have gone around the State, I have met some of these 
volunteers, and it is really--these are great, great Americans, 
great Minnesotans, and I think people should hear about them. 
But thank you so much.
    Ms. Freeman.

 STATEMENT OF IRIS C. FREEMAN, ASSOCIATE DIRECTOR, CENTER FOR 
   ELDER JUSTICE AND POLICY, WILLIAM MITCHELL COLLEGE OF LAW

    Ms. Freeman. Thank you, Senator Franken.
    These comments will focus on elder justice issues. 
[Laughter.]
    Supporting independence is at the heart of the Older 
Americans Act.
    Ms. Freeman. For some, especially those most frail, 
independence is a generous and misleading term for isolation. 
Real independence for older Americans means safety from abuse, 
neglect and financial exploitation. Moreover, real independence 
means the ability to access help for the daily care and chores 
that one can no longer manage. My testimony addresses these two 
facets of elder justice: protection from that maltreatment, and 
safety in home and community services.
    Elder abuse, neglect, and exploitation are more than 
personal tragedies. They translate to public costs: medical 
care to treat wounds, broken bones, and starvation, housing and 
healthcare for victims left destitute by the swindles of people 
they trusted. Reported allegations in MN for Fiscal Year 2009 
exceeded 25,000, with 39 percent of those alleging caregiver 
neglect. Reported cases are widely acknowledged to be just a 
fraction of the reality.
    Priority: Address abuse, neglect, and exploitation in home 
and community settings with increased Title VII funding, while 
maintaining efforts on behalf of nursing facility residents.
    Minnesota receives $21 million from the Older Americans Act 
funding. Only $79,000 of that is Title VII Elder Abuse money; a 
fraction of a percent. The narrow dollars and ratio promise 
shortchanged services.
    Priority: Make uniform national data collection a condition 
of receiving Federal funds by 2015.
    Practitioners and policymakers just do no have the data 
needed to tackle elder abuse, neglect and exploitation head on. 
We lag behind that work in the fields of domestic violence and 
child abuse, but we can learn from their models.
    Another priority: Create six coordinating Centers of 
Excellence on Elder Abuse and Neglect through the 
Reauthorization.
    The Center of Excellence at the University of California at 
Irvine Medical School is a beacon and a model of medical, 
forensic, and victim services. But realistically it can not 
respond to an entire Nation's needs.
    Let me turn, now, to consumer protection in home and 
community-based services and reprise some of the issues and 
recommendations that you have heard so far.
    We are facing a barrel of challenges, and probably two 
barrels of mysteries. We know that the overwhelming percentage 
of care is provided by family. But we do not know how 
sustainable that is into the future. We know that paid 
caregivers are in such short supply that even one's ability to 
pay does not promise enough, or good enough, care. We are 
unwilling to give these jobs livable wages. We know that 
monitoring the delivery of care for persons inside the walls of 
private homes makes the challenges of monitoring care in 
congregate settings seem like small potatoes. Some of the 
technological possibilities for keeping watch are 
controversial. Technology may bridge miles and guard against 
isolation, but I, for one, do not want to wear a wire or line 
up with a monitor to use the toilet.
    Priority: Include a Bill of Rights for Home and Community-
based Services in the 2011 reauthorization.
    Minnesota's Home Care Bill of Rights applies only in 
licensed home care services. Similar limits exist in those 
codified in other states. A Federal bill of rights, across 
services and regulatory jurisdictions, would promote both 
professional standards and public expectations.
    Priority: Plan for ongoing public awareness efforts to 
raise people's expectations of good care and individual rights.
    Individual rights are intrinsically difficult to monitor, 
especially in private homes. A few of us remember contract 
details when we sign up for services, especially in a crisis.
    Priority: Expand the mandate and funding of the Ombudsman 
program to include advocacy for elders in home and community 
services.
    Quality standards and a bill of rights set us on the right 
path. Ombudsmen explain the complexities, intercede, and use 
persuasion to repair situations regardless of whether there is 
a specific violation of law.
    Priority: Assure that Ombudsman programs also have the 
independence in their settings and mandate to provide advocacy 
at the policy level as well as in individual cases.
    Ombudsmen are in an ideal position to use case data, 
trends, and experiences to advocate for consumer rights and 
safety. The Older Americans Act must ensure their freedom to 
represent their constituencies in public decisions about 
service systems.
    Finally, this is a very good time for State Units on Aging, 
Ombudsman Programs and Adult Protective Services systems to 
plan strategically for delivering elder justice in the future. 
None of these systems is uniquely able to handle the growing 
needs for protective services and consumer safety. Regardless 
of funding levels, cooperative efforts will promote cost 
efficiency.
    Thank you, Senator Franken and your fellow committee 
members for your leadership on the Reauthorization of the Older 
Americans Act. Throughout Minnesota today, there are older 
people desperately clinging to their homes, some in 
frighteningly abject circumstances. Ensuring their basic safety 
while respecting their individuality and privacy requires our 
steady, shared commitment.
    [The prepared statement of Ms. Freeman follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Franken. Thank you, Ms. Freeman.
    Mr. Johnson.

STATEMENT OF NEIL JOHNSON, EXECUTIVE DIRECTOR OF THE MINNESOTA 
               HOMECARE ASSOCIATION, ST. PAUL, MN

    Mr. Johnson. Thank you, Senator Franken. I also want to 
praise you and thank you for your work. I also want to thank 
your staff, as well, Melissa and Lauren did a wonderful job in 
working with us and preparing us and getting information to us 
about the hearing today.
    In the spirit of full disclosure, I am the past co-chair of 
the Minnesota Leadership Council on Aging, and probably didn't 
update my vitae when I sent that to you. But, I wanted to let 
you know that I'm still a member of that group.
    Again, thank you for the opportunity to appear before you 
today and for your work on these timely topics. I would like to 
talk about how we can ensure quality in home and community-
based services. As you can imagine getting your arms around 
what quality means can be challenging. Medicare certified home 
care agencies have measurable outcomes called ``Homecare 
Compare'' with which to gauge progress on a number of publicly 
reported areas such as rehospitalizations, falls, taking of 
oral medications, et cetera. Other home and community-based 
services are measured on the number of services that are 
provided or the timeframe by which they are delivered. Many 
programs, like personal care attendant services have no real 
measures other than to document if the services were delivered.
    Oversight by the Minnesota Department of Health and the 
Department of Human Services for certain licenses provide some 
measure of quality by documenting compliance with rules and, to 
some extent, consumer satisfaction.
    Do any of these things really ensure quality? I don't think 
so. Instead, we must start with the consumer. Counties and 
regional planning agencies annually listen to consumers and do 
a gaps analysis whereby they identify gaps in needs and 
services in their community, such as transportation, housing, 
meals, in-home services, et cetera, as we've heard today. 
Community needs assessments are very important. Most service 
providers have some kind of assessment process to determine 
needs, level of care, and eligibility. In fact, the new MINN 
CHOICES tool that is being developed and tested by the state of 
Minnesota will go a long way to ensure some continuity in 
approaches to a comprehensive assessment process across funding 
sources and programs.
    As we enter the age of the savvy computer--excuse me, 
consumer--we will need to think--maybe that, too. [Laughter.]
    We will need to think of more creative ways to ensure 
quality. First of all, providers need to be transparent with 
regard to services and costs. Service agreements and contracts 
should clearly spell out what are the costs--what services will 
be provided, and what those services will cost.
    Second, we need to make access to services easier to 
navigate. We have such things as the Senior LinkAge Line and 
Minnesotahelp.info and they are wonderful resources. But we 
need to make sure that consumers are given information on 
available services, as well as those that are providing quality 
services and there is follow-through in the form of care 
coordination to make sure the services were provided in the 
best way possible.
    We have often talked about a report card approach which 
would be helpful to consumers, but we need to be careful about 
what we are sharing and how accurate that information is. We 
also need to embrace technology in order to provide services in 
the most cost-effective, efficient way possible. Such things as 
being able to exchange information remotely through TeleHealth, 
a single repository of information like electronic health 
records, and assistive technology to help keep seniors in the 
homes. Internet connectivity can help families track services 
for their loved ones and remotely participate in their care 
planning. We need to add broadband width to rural areas of the 
state in order to take advantage of some of these forms of 
technology.
    What kinds of information would be helpful to know for 
consumers? How long has the agency been in business? What are 
the qualifications of the staff? How long have they been there? 
What is the turnover rate of the staff, including key positions 
like nurses, home health aides, et cetera? What is the extent 
of their criminal background study? Have they had a recent 
survey by the Health Department? If so, what, if any, were the 
citations? If they have not had a recent survey, when was the 
last survey? Have they had a substantiated complaint against 
them? What services do they offer? If I have a problem, who do 
I call or communicate with? Is there a policy to resolve issues 
with the consumer? Does that agency have a measurable work 
plan? What is it? How does the agency communicate with the 
consumer/family about the Care Plan? If there is a willing and 
able caregiver in the home how does that person receive support 
from the agency? What kind of training does the staff receive? 
If there are changes in the consumer's health or condition how 
is that handled?
    This is a starting list of questions; I am sure there are 
many more. Advocating for a broader Bill of Rights like we've 
talked about today, like we have in Minnesota is good and 
something to build on.
    So, in conclusion, quality means different things to 
different people. If we start with the consumer and listen to 
their needs we are on the right track. Next, providers of home 
and community-based services must have practical measures of 
outcomes across payment sources and programs. We must support 
family caregivers as the core of home and community-based 
services through training, coaching, and mentoring. There needs 
to be regular oversight by regulatory bodies, as long as it 
does not create undue burdens for providers. We must all 
collaborate and cooperate to ensure that providers are working 
toward a goal of helping people stay in their homes, even 
though they're facing health issues, and provide the highest 
functioning level possible for the consumer so that they can 
live in the least restrictive environment possible.
    Thank you.
    [The prepared statement of Mr. Johnson follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Franken. Thank you, Mr. Johnson.
    Thanks to all of you.
    I would--Jim, would you come up and join and share a mic, 
too? Because I'm going to be asking some questions for everyone 
to weigh in on, and if you have a thought I would appreciate 
that.
    Jan, I want to start with what I was talking about, but 
first I want to ask you how you heard about the Chores and More 
Program? Because, Mr. Varpness talked about single point of 
entry, and I just wanted to know how you heard about Chores and 
More?
    Ms. Ferrier. Oh my goodness, it's been so long ago, I think 
I probably heard about it from a neighbor, originally.
    Senator Franken. OK.
    Ms. Ferrier. Then I called Anoka County, and they referred 
me to the Chores and More Program where I worked with Ann Kusie 
and----
    Senator Franken. So, it was word of mouth from a neighbor?
    Ms. Ferrier. Yes.
    Senator Franken. OK.
    Let me just--because I just wanted to do this, because I've 
been so struck with the volunteers that I've talked to around 
the State. Can you tell me what the volunteers--I know you pay 
for some of the services you get, but talk to me about the 
people who volunteer?
    Ms. Ferrier. They are so amazing. So, so amazing. I have 
had a whole Boy Scout troop help me with lawn and leaf raking, 
I have had church groups--incidentally, the people who raked my 
lawn last year, in the fall--excuse me, in the spring, this 
past spring--they were a young high school student who needed 
to earn some credits for a class in school, and his parents 
came. So, all three of them worked on my lawn.
    Senator Franken. Did his parents get any credit? 
[Laughter.]
    Ms. Ferrier. The parents--no.
    Senator Franken. From him? [Laughter.]
    Ms. Ferrier. The parents came and worked with him on it, 
and then the neat thing I felt about it, was I spoke with Ann a 
few days ago--we always sign up on the first of September, for 
the fall work--and she informed me that they had requested that 
they work for me again at my home. So I love their volunteer 
work; they're really great. They did a really good job. Most 
people do.
    I had one--I don't remember what the name of the 
organization was, although I did send them a thank you letter, 
because they did such an amazing job, and they are the ones 
that--and strictly volunteer work--they cleaned my gutters, 
they refinished my picnic table, including sanding it and 
restaining it--a lot of work in that area. They raked the 
leaves, just so much they did.
    Senator Franken. Thank you.
    Ms. Ferrier. I am really appreciative of volunteers, and 
what they do.
    Senator Franken. We all are.
    Ms. Ferrier. I am probably more than likely going to be 
looking forward to using more things that are available to me 
down the road, because my medical problem is progressively 
disabling.
    Senator Franken. Thank you.
    Ms. Moe, do you favor increased funding and independence 
for the Ombudsman Program? [Laughter.]
    Ms. Moe. Certainly. [Laughter.]
    Senator Franken. OK, I thought so. [Laughter.]
    Well, because what I'm hearing is, and Ms. Harrington 
talked about recommendations--increase simplicity and 
flexibility, consolidate funding streams, strengthen the 
Ombudsman Office, which I heard, also, from Neil, and I believe 
from Iris, too; partnerships to coordinate services and 
transportation--all of this seems desired. Part of my 
experience is, you all know each other, essentially, right? I 
mean, except for Ms. Ferrier, but essentially, this is a 
community, right? All of you are working incredibly hard on 
behalf of seniors in Minnesota, and Jim on behalf of seniors 
nationwide. This is a community. You kind of really know what 
you need.
    One thing I heard was these funding streams. You say there 
were six funding streams under Title III, and you'd like to get 
it down to one.
    Jim, is such a thing possible? How do we do that?
    Mr. Varpness. Probably with great care.
    I think----
    Senator Franken. That's how to do it----
    Mr. Varpness. Yeah, right.
    We've certainly heard from others, besides here in 
Minnesota, about consolidating funding streams. We've heard 
mostly your comment about C-1 and C-2, which is the home-
delivered meal and the congregate meals, and there seems to be 
a lot of interest in doing those kinds of things, primarily so 
that, again, getting back to the flexibility comment that 
Kathleen talked about, so that States and local communities can 
decide, where do they need the meals money most? Home-delivered 
meals----
    Senator Franken. Right.
    Mr. Varpness [continuing]. Is growing all over this 
country.
    Senator Franken. Well, I hear this in every facet of 
government--I hear it in education, you know, sometimes the 
funding streams dictate the decisions we make, because, ``Well, 
I need money, I can only get it from this funding stream, so 
I've got to hire this, when what we really need is that.'' So, 
if we can get into more detail about that, I'd really like to 
do it.
    I heard this--Meals on Wheels, or Meals at Home, and 
Congregate seems to be something that should be done and then 
I've heard from a number of you in your testimony and some of 
the other written, submitted testimony.
    I want to bring up my wife's idea---- [Laughter.]
    Senator Franken. Because if I don't--she'll hear about it.
    But, I think this is a good idea, because Ms. Harrington, 
you brought it up. Which is, partnerships to coordinate 
services and transportation. Now, here's an idea, and I'm 
wondering--but take it more of an example of an idea, which is 
that school buses--are basically used at the beginning of the 
day and the end of the day, right? Then I hear about lack of 
transit, transportation for seniors, so her idea was, to 
coordinate the use of school buses with senior transportation. 
Is such a thing--has it ever been tried, has it been 
contemplated? Is it doable? Is it a good idea?
    Ms. Harrington. It's a great idea----
    Senator Franken. It's a great idea? OK, use the mic.
    Ms. Harrington. But it----
    I think you can tell your wife it's a great idea. It has 
been tried--we, in fact, one member of the Board on Aging has 
discussed it in her local community. We run into--not 
surprisingly--liability issues, cost-effective issues, 
willingness of Boards of Education to cooperate with local 
governments, so it creates a complexity that seems to be 
unfortunate, but it has been discussed, and I don't think the 
discussions should cease.
    Senator Franken. But, can those barriers be overcome? It 
seems like, maybe they can.
    Ms. Harrington. I think anything can be overcome, yes.
    Senator Franken. Yeah.
    Ms. Harrington. But, I think we would need leadership in 
helping make it happen. I think there would be some relief that 
would be necessary from liability issues. Obviously, the cost-
effectiveness of running buses versus individual cars; 
there's--there are issues, there.
    Senator Franken. Well, there are some bus lines that do 
work--and I was just in Pine City, and they have a bus line up 
there that really is a life-saver for seniors.
    Ms. Harrington. Oh, I think that's true in many States, and 
obviously many areas in this State. But the issue of getting 
the various governance jurisdictions to cooperate--and I know 
there is a very effective task force going on within Minnesota 
that is making progress, and we could see, you know, if we 
could get a report----
    Senator Franken. So, that would be something for someone in 
government to do.
    Ms. Harrington. In government. Well, I think it helps for--
--
    Senator Franken. Hm, where could we find one of those? 
[Laughter.]
    Check into that, would you? OK.
    Iris--sorry, I keep going between last names and first 
names. Neil talked about quality, a lot about quality. Would 
effective measures of quality reduce abuse and neglect?
    Ms. Freeman. Senator, the most important place to start is 
simply to keep people safe from charlatans. If we can just get 
the bad actors out of that service, people who--and I say this 
with great respect to Neil and all of the real angels who work 
in home care--there are agencies where they're printing the 
nursing licenses in the trunk of the car. There is a lot that 
can be done with quality measurement and real--very, very 
subtle, minute elements of quality.
    But for real consumer protection and safety, let's start 
with getting the bad guys out.
    Senator Franken. Yeah, but it's interesting, because again, 
across anything, there's bad actors and good actors, right?
    Ms. Freeman. Mm hm.
    Senator Franken. Usually, most of the actors are good 
actors, and there are a few bad actors.
    Neil, you headed up, in Minnesota, the Home Care Providers, 
right?
    Mr. Johnson. Right.
    Senator Franken. Do they know who the bad actors are?
    Mr. Johnson. Well, that's a good question----
    Senator Franken. Or, are they fly by-nights?
    Mr. Johnson. Well, it's--you know, I think, we mentioned 
some of the things that you want to look for when you're--
particularly your hiring process; hiring is certainly not a 
perfect science by any means, and we do a background study in 
Minnesota. The problem is, of course, you're only looking at 
Minnesota. So, we're looking at, you know, trying to broaden 
out the background studies so you're looking at other states, 
for example, you're looking at other types of offenses that may 
be more prevalent to those going in and ripping off people.
    You know, I think, guarding against family members who do 
it is really difficult, because then you----
    Senator Franken. What percentage of care is provided by 
family members? Because I think it's in the 80-something 
percent?
    Mr. Johnson. Yeah, it's probably about 10 percent--I think 
family caregivers is about 90 percent of the care giving, so 
it's a small percent.
    Senator Franken. I've heard in the testimony about the, I 
think it was Ms. Moe, who talked about the fear of, ``My son 
won't visit me unless I give him money.'' So, when we're 
talking about some of this neglect and abuse--and this is 90-
percent of the care, we're talking about a large part of this 
abuse and neglect coming from family members, is that correct?
    Ms. Freeman. That is correct, and verifiable, particularly 
in the area of financial abuse, financial exploitation.
    Some of these family members may not be caregivers, per se, 
but they do have a very emotional hold on the vulnerable 
individual. The vulnerable individual is rarely willing to 
press charges.
    Senator Franken. Do you need to press charges? I mean, that 
means, being a witness and being able to bring a case--you 
can't bring it without the person saying, ``I'm willing to 
testify against my--''
    Ms. Freeman. Remember, you're asking the social worker at 
the law school---- [Laughter.]
    Senator Franken. Well, that's why I'm asking. I did 
remember that.
    Ms. Freeman. But, in fact----
    Senator Franken. That's why I asked you. [Laughter.]
    Ms. Freeman. It is true that family members may very well 
be the perpetrators. But it is also true that when family 
members are trying to do the good comparison shopping that we 
would have them do to find out about the staffing 
characteristics at an agency and their training and what-not, 
they may be faced with the reality that that is the only 
service in the area that has a slot open. So we want people to 
ask the right questions and be diligent, but sometimes the 
urgency is to get anybody in there, right away. That's just the 
sad truth of the matter.
    Senator Franken. Ms. Harrington, I wanted to ask about the 
Senior LinkAge Line, and Minnesota Help dot-info Web site. Say 
I call the Senior LinkAge Line for help after my mom fell and 
couldn't take care of herself. Walk me through--how that would 
go? I mean, how would the process of talking with the phone 
counselor help me figure out which services were available to 
my mom?
    Ms. Harrington. Depending upon the county you called, but I 
think in general, you would get a well-informed person who 
could help you understand all of the available services and the 
connections to those. If it was an emergency situation, it 
would obviously be done on a rapid-response basis. But, clearly 
the people who work on the Senior LinkAge Line--the front-line 
people sometimes do the triage, but then pass them on to people 
who are quite expert in the resources that are available in the 
community.
    I can speak of this from a previous life when I was not a 
Minnesotan, and worked in Washington doing the Part D 
campaign--Minnesota's Senior LinkAge Line was the premiere 
service line in the entire country, in terms of quality and 
volume of service that it handled for senior trying to find out 
about their health insurance.
    But, to--I think I answered your question, with a little 
aside, there, that you would get the full complement of 
available resources and the directory information.
    Senator Franken. Do other States have similar lines?
    Ms. Harrington. There is, in this country, a--what's called 
the State Health Insurance Program, that is a volunteer-based 
program sometimes run out of the Office of the Insurance 
Commissioner, sometimes out of the Aging Office that does--is 
available to help seniors make informed decisions on their 
Medicare issues, long-term care issues, and--but to say that 
most of them are as robust as Senior LinkAge Line would not be 
necessarily true. I think this one is highly developed--and I'm 
looking to Jim because I want to sound like I'm being a 
partisan, here--I think it is much more robust than many. 
Probably the most----
    Senator Franken. Jim, you're objective. [Laughter.]
    Mr. Varpness. This is true, this is true.
    Senator Franken. Now that you're working for the Federal 
Government----
    Mr. Varpness. Yes, yes, I can speak from the Federal----
    Senator Franken. Put on your Federal hat, here.
    Mr. Varpness. Yeah, it's on, it's on.
    Yes, that's actually correct. Minnesota really has probably 
the most expansive, comprehensive data base of any State. It 
has approached doing this by bringing together, really, all of 
the various kinds of departments--it's really a model of 
partnerships and coalition-building that's brought Children's' 
Services, services for people with disabilities, veterans' 
services, housing services and even FEMA-type services in this 
State. So, it's a very robust data base.
    What's great about this particular system that some of the 
other States have, as well, is that you can actually--
individuals can actually go through Minnesota Help online and 
get the information themselves. Some people, frankly, aren't 
phone people. They want to bring, and pull this stuff together. 
You can, online, actually chat with people online. It really is 
a marvelous example--it's a model service, that piece of it.
    There are 47 other States that have various approaches, but 
they're not as robust, and they're not Statewide, they're 
demonstration projects, and some States have more investments 
in terms of person capital on the resource side.
    Senator Franken. In terms of what?
    Mr. Varpness. Person capital, putting more people at the 
local levels and counties to do some of the coaching and some 
of the triage work. Minnesota, I believe, still does a lot of 
this through the Network.
    Ms. Harrington. Mm hm. Yes.
    Mr. Varpness. Through the phone system. Yeah.
    Senator Franken. OK, I'm wondering in reauthorizing the 
Older Americans Act, what can you legislate because I would 
think this is a more efficient system that ultimately saves 
dollars and saves suffering et cetera. How would you legislate 
something like that? Or, can you?
    Mr. Varpness. Well, we've been funding these as innovation 
projects across the country and demonstration projects. Some 
States have done it in different ways to meet their specific 
needs. In the State of Wisconsin, for example, Wisconsin has a 
different kind of approach, a different model. They fund aging 
disability resources in each of their 87 counties. It's much 
more of a--it's much more of a single point that relies on 
individuals, essentially, coming in, if you will, for different 
kinds of services. It's a very successful program, too, as 
Minnesota----
    Senator Franken. So, allow each State to figure out their 
own----
    Mr. Varpness. I think----
    Senator Franken [continuing]. To some extent----
    Mr. Varpness. In the sense, it works best for States to try 
to best meet some of the individual needs in their particular 
areas.
    There's also issues that--Neil brought up the issue on 
broadband width example. Some States are able to really push a 
lot of technology options and opportunities. Other larger, 
rural States, that's not a very realistic approach for them to 
take.
    So, we've got to be careful about how we say how it should 
be done.
    Senator Franken. Ms. Freeman, you said that there were 
25,000 reported allegations in Minnesota in 2009 of some kind 
of, abuse or neglect.
    Ms. Freeman. Or financial exploitation.
    Senator Franken. Or exploitation.
    Ms. Freeman. Yes.
    Senator Franken. You said 39 percent alleged caregiver 
neglect. How does the rest of it break down? You said it was 
widely acknowledged to just be a fraction of the reality, so 
explain that.
    Ms. Freeman. Yes. We have asked the Department of Human 
Services to go further into their data to be able to break out 
of the caregiver neglect--how many of those or what percentage 
of those occur with formal providers, how many of those are 
family caregivers. That information isn't as readily available 
as we would want it to be, but they are working on it.
    Senator Franken. You asked for more data?
    Ms. Freeman. That's right. Something more refined than 
those large categories. So we're hoping to have that. I will 
see to it that your staff and office have that.
    But the issue of reported cases being the tip of the 
proverbial iceberg is what is reported by national studies done 
by the National Adult Protective Services, administrators, as 
well as scholars in the field. It very much--very much 
resembles what domestic abuse and child abuse reporting were 
like when those phenomena were first seen as public issues and 
not just family tragedies.
    Senator Franken. OK.
    Ms. Freeman. So as awareness grows, there are more 
individuals who may be willing--either because they're a 
mandated reporter under law, or because they just have a 
feeling of civic duty to help--more people will call.
    But, one of the things I also hope to see as we improve 
these services, is greater public awareness about where to 
call, a more streamlined system for making those reports of 
abuse, neglect, and exploitation. Because, unless you really 
work in the field, it is not obvious to anyone, where you call 
to report a case?
    Senator Franken. Thank you. Thank you, all. This concludes 
the time that we have for today. I really appreciate you all 
being here--everyone who's here. Especially those who shared 
your expertise, and your thoughts on the reauthorization of the 
Older American Act.
    I would also like to thank the Maple Grove Community Center 
for making the space available today, for hosting today's 
hearing. Our discussion has made it clear that in order to help 
seniors stay independent, we must do more to provide high-
quality services to seniors in their homes. I will soon be 
introducing legislation--including many of the proposals, we 
have talked about today, such as a Federal Homecare Bill of 
Rights to ensure that all seniors who receive care in their 
homes have similar protections guaranteed in the Minnesota 
Homecare Bill of Rights.
    I will also be working to ensure that Minnesota has the 
resources we need to protect seniors from abuse and neglect 
when they receive services in their home. I will work to build 
on existing resources, like the Senior LinkAge Line, and the 
Minnesota Help.info Web site, to help seniors and families get 
information that they need to make informed decisions about 
their care.
    Finally, I will be a staunch advocate for robust funding 
for the Older Americans Act, and also for increased flexibility 
and simplicity and of hopefully, more cost-effective use of 
funding we do have. The Older Americans Act is a cost-effective 
investment that helps keep our seniors in Minnesota and across 
the Nation in their homes, so that they can age happily and 
healthfully.
    Once again, thanks to everyone for attending today's 
hearing. I look forward to continuing to work with you to 
promote senior independence in the 2011 Older Americans Act.
    The hearing is closed.
    [Whereupon, at 3 p.m., the hearing was adjourned.]



                            A P P E N D I X

                              ----------                              


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
